                                       . ,

                                     "'-




                      IMPACT OF NEW REQUIREMENTS:
                       AFDC STANDARD FILING UNIT
                         National Program Inspection




      .. SEl.Yl(lS.




'0



     -It'-'lIe



OFFICE OF INSPECTOR GENERAL
     OFFICE OF ANALYSIS AND INSPECTIONS


                                                       MARCH 1988
                              .. . .




                   Office of InsDector General

The mission of the Office of Inspector General (OIG) is to

promote the efficiency, effectiveness and integrity of

programs in the United states Department of Health and Human

Services (HHS). It does this by developing methods to
detect and prevent fraud, waste and abuse. Created by
statute in 1976 , the Inspector General keeps both the

Secretary and the Congress fully and currently informed

about programs or management problems and recommends

corrective action. The OIG performs its mission by

conducting audits , investigations and inspections with
approximately 1, 200 staff strategically located around the
country .


                Office of Analvsis and InsDections

This report is produced by the Office of Analysis and

Inspections (OAI), one of the three major offices within the
OIG. The other two are the Office of Audit and the Office
of Investigations. The OAI conducts inspections which are

typically, short-term studies designed to determine program

effectiveness , efficiency and vulnerability to fraud or
abuse.
This study was conducted to analyze the effect on HHS
programs of changes in the composition of the standard filing
unit mandated in the Deficit Reduction Act of 1984.

The report was prepared under the direction of Kaye
Kidwell , the Regional Inspector General of Region IX, Office
of Analysis and Inspections. Participating in this project
were the following people:


     Kathy L. Admire, Project Director

     Leonard Czajka , Program Analyst

     Ruth E. Carlson , Secretary

     Albert J. Nace , Project Liaison , Headquarters

     Wm. Mark Krushat , Mathematical Statistician

         Headquarters
                  DlACT OF NE REQUIRES:
                   AFDC STANAR FILING UNIT




RICH P.    KUSSEROW
INSPECTR   GEN                               MACH 1988
OAI-09-87-00003
                                               EXECUIV SUMY


PURSE The purpose of this study was to analyze the effect
of new requirements mandated in Section 2640 of the Deficit

Reduction Act of 1984 (DEFRA) regarding the composition of

the Aid to Families with Dependent Children (AFDC) standard

filing unit   (SFU). The SFU is the family unit which serves
as a basis for computing an AFDC
the impact of the statutory changes (i. The
                                                       grant.
                                               study forecasts
                                           , Sections 402(a) (38)
and 402 (a) (7) of the Social Security Act) on three Department
of Health and Human Services (HHS) programs: AFDC, Medicaid

and Child Support Enforcement. Specifically, the study was
intended to:
      determine the types of cases which are likely to result

      in either savings or additional costs


      analyze the effect on eligibility                     (i.   welfare
      caseloads) and


      estimate the fiscal impact on HHS programs 




 BACKGROUND                    Prior to enactment of DEFRA, household family
members eligible for AFDC were not required to file for bene­
 fits as a single SFU. Some families were receiving maximum
welfare grants by (1) forming multiple SFUs within a household
and/or (2) excluding persons with income or resources, thus
sheltering money which would adversely affect the family'
AFDC grant. The DEFRA ended these options by requiring
consolidation of multiple SFUs involving teenage mothers under

age 18 and prohibiting the exclusion of any                   eliqible member of
the immediate family from the SFU. Th resources of previ­

ously excluded persons , such as child support payments and

Social Security Administration (SSA) death or disability
benefits , must be considered in determining the family'
eligibility as well as the amount of their grant. The legis­
lation did not create new AFDC and Medicaid eligibility for
anyone, but it does prohibit eligible family members from
electing             not to apply for assistance.
The Department projected Federal savings of $143 million for
AFDC during fiscal year 1985 and $439 million over a 5- year
period.  Additional annual costs of $93 million were pro­
jected for Medicaid. Although final regulations have not
been issued, most States have implemented these changes,
acting under interim instructions issued by the Department.
Class action suits challenging the constitutionality of the
SFU provisions have been filed in Federal courts in many
States. A decision by the united States Supreme Court,
involving a lawsuit filed in North Carolina , upheld the
constitutionality of the SFU provisions.
Grant Consolidation   Approximately two-thirds of the
children receiving AFDC in an SFU separate from their
mothers/grandmothers were unaffected by grant consolidation
requirements because these separate SFUs were headed by
mothers over age 17.
RECOMMDATIONS:
    THE DEPARTMENT SHOULD CONTINUE TO SUPPORT AGGRESSIVE
    CHILD SUPPORT COLLECTION ACTIVITIES. Recommendations for
    the implementation of improved child support enforcement
    collections have been addressed in five OIG inspections:

                Child SUDDort Enforcement Collections on AFDC
                Cases--An Overview (OAI-05-86-00097)

                Child SUDDort Enforcement Collections on AFDC

                Cases--Non-Pursuit (OAI-05-87-00033)
                Child SUDDort Enforcement Collections on AFDC

                Cases--Arrearaqes (OAI-05-87-00034)
                Child SUDDort Enforcement Collections on AFDC
                Cases--Modified Court Orders (OAI-05-87-00035)

                Child SUDDort Enforcement/Absent Parent Medical

                Liabilitv               (OAI-07-86-00045)
    THE DEPARTMENT SHOULD SEEK STATUTORY CHAGE TO EXPAND
    MADATORY GRAT CONSOLIDATION OF RELATED FAMILY MEMBERS
    IN MULTIPLE SFUS IN THE                          SAM HOME BY ELIMINATING THE AGE
    CEILING OF 17. This is consistent with the recommenda­

    tions in an audit released by the OIG entitled
                                                                           Economies
    of Shared Livinq Arranqements Under the Aid to Families
    With DeDendent Children Proqram (CIN: A-09-86-62615).




                                                     iii

                            TABLE OF   CONTS

                                                          Page
EXECUIVE SUMY
INTODUCTION
FINDINGS

    OVEVIEW: EFFECT         OF   STANAR FILING UNIT
    CHGES ON PERONS LIVING IN HOMES          CONTAINING
    AFDC RECIPIENS

       Adul t Caretakers of AFDC Children


       Natural Children Not in SFU

    CAES AFFECTD BY SFU CHGES
       Persons with SSA Benefits Who Must Be in SFU

       Consolidation of Multiple SFUs in a Home

       Children Receiving Child Support Payments
             Who Must Be in SFU 

       Half-Siblings and Parents Who Must Be in SFU 

       other Eligible Children Excluded from SFUs 


       Mothers Who Are Not on AFDC and Must Be in

          the SFU with Their Children


       Summary of SFU Effect on Sampled Cases


       Fiscal Projections of the Effect of the SFU

             Changes
RECOMMATIONS
APPENDICES

    APPENDIX A:        SUMY OF CASES AFFECTING
                       STANDARD FILING UNIT (SFU)         A-1
    APPENDIX B:    METHODOLOGY                            B-1
   APPENDIX C:     SUMY OF PERSONS IN HOUSEHOLDS
                   WITH AFDC RECIPIENTS                   C-1
   APPENDIX D:         SFU EFFECT ON AFDC/MEDICAID
                       CASELOAD BY STATE                  D-1
                             INTODUCTION


Prior to  enactment of the Deficit Reduction Act of 1984

(DEFRA),  family members living in the same home who were

eligible  for Aid to Families With Dependent Children (AFDC)
were not  required to file for benefits as a single standard

filing unit   (SFU). Some families received maximum welfare
grants by (1) forming multiple filing units within. a house­
hold and/or (2) excluding persons with income or resources
thus sheltering money which would adversely affect the

family' s AFDC grant.
The DEFRA ended these options, however, with changes in
Sections 402 (a) (38) and 402 (a) (7) of the Social Security Act.
Within a home all eligible adults and their children,

 including siblings and half-siblings , must be included in a

single SFU. Specifically, the income and resources, such as
Social Security Administration (SSA) death or disability
payments or child support payments, of eligible persons
previously excluded from AFDC must be counted in determining
the family' s eligibility, as well as the level of their AFDC
grant.             The legislation also requires the consolidation of
multiple filing units where a teenage mother under 18 is
residing with other related AFDC recipients. The DEFRA did
not create new AFDC and Medicaid eligibility for anyone, but
prohibits eligible family members from electing            not to apply
for assistance.


The Department of Health and Human Services (HHS) supported

enactment of this provision and projected Federal savings for

AFDC of $143 million for Fiscal Year (FY) 1985 and $439 mil­

lion over a 5- year period. The projections were based on the
assumption that consolidation of multiple filing units would
be less costly and that income or resources from previously
excluded adults and children would result in reduced welfare
grants and render some families ineligible. The Department
further projected a cost of $93 million to the Medicaid
program to cover persons who would be added to the AFDC case-
load.  The Department assumed it would realize substantial
savings through reduced grants , even if the overall caseload

increased.
Although final regulations have not been issued, most States
have implemented the DEFRA provision, acting under interim
instructions.   Class action suits challenging the constitu­
tionality of the SFU provisions have been filed in Federal
courts in many States. A decision by the united States
Supreme Court, involving a lawsuit filed in North Carolina,
upheld the constitutionality of the SFU provisions. In the
fall of 1986 , the Office of Inspector General (OIG) undertook
an inspection which would forecast the effect of the SFU
                                   SI         OF CA           REIBE
        1306   cases review by     OIG staff

               (10OX of QC s     le in 8 Western States for         4/84   9/84)


                351 cases   drop (QC did not c
                should have    be inel igible during          lete review or cases
                                                               review period)

                955 cases receive full review (worksheets c                leted)

                     88 cases    - OIG staff review only

                      73 cases - referred to OFAlQC staff for further review



                            28 cases - no filing unit effect


                            45 cases - fi l ing       unit effect



Both the Regions IX and X OFA QC and policy staffs assisted

us with analysis of issues and specific cases affected by the

SFU changes. Cases analyzed by the QC staff were returned to

QIG for further analysis. Information from all 955 cases was

entered into a microcomputer data base for extensive analysis.
The data generated served as a basis for proj ecting changes in
eligibility as well as costs or savings to the AFDC, Medicaid
and Child Support Enforcement programs in the eight States and
nationally.  Average Medicaid costs for adults and children in
the eight sample States were calculated based on data from
Form 2082 for FY 1984, published by the Health Care Financing
Administration (HCFA). Child support payments reflect the
actual amounts recorded in the AFDC case record.

proj ections werecalculated by the OIG mathematical
statistician with assistance from FSA statisticians.
Appendix B summarizes in further detail the methodology                              used
in this study.
samDled AFDC cases is the sub; ect of this reDort  Appendix C

contains a more detailed breakout of persons in each of these

categories.

                SUMMARY OF PERSONS IN AFDC HOMES
                             (AS RELATED TO      "'ARY CARETAKERI





                                                                                 iP?iNTS




                                        TOTAL. IN HOMES


                                               755
                                              (100%)

         UNRELATED PERSONS                                           RELATIVES




                                       NAT'-AL C..LDfiEN
                                          NOT IN



                                    , IN   .., IAII .u.

Adul t Caretakers of AFDC Children   Only 12 percent of the

180 adult caretakers of AFDC children would have been affec­
ted by the SFU changes. The following table describes these
22 adults. Only one was an AFDC recipient who would have been
affected through grant consolidation. The remaining 21 par­
ents were not on AFDC, but had children who were. Of these
21 parents , one mother was receiving social Security death or
disability benefits.   One mother and two fathers would have
been drawn into the SFU as parents of half-siblings. The
remaining 17 were mothers with children on AFDC. Most were
married or living with a boyfriend. Drawing all 22 adults
 been affected by the SFU changes and drawn into filing
 The children not affected by SFU changes in the "       units.
 reasons.
 reasons" category were all undocumented           other
 been left out of the family filing unit for a variety  of had
                                                   The rest       aliens.

                   1l11 Clll. II      II STNI     FILING IIIT     1:49
            Category                                   II   SFU
                                          Total        Effect     Percent
            SSI Recipients
            SSA Recipients
                                                                   100
            Child Suprt Recipients
                                                                   100
            Other Incom

           No Deprivation (Inel igible)
           OVer    Age 18

           Half Siblings (Eligible)
                                                                   100
           In Seprate AFDC SFUs

           Other Reasons

                  Totals                   249

CAES AFFECTD BY SFU CHGES
The following discussion analyzes the 45 cases which would

have been affected by the SFU changes in terms of their

impact on three HHS programs: AFDC

Enforcement and Medicaid.           , Child Support

                           Appendix A summarizes these cases.
They fall into six classifications:


   persons receiving SSA death or disability benefits who

   had been excluded from their family'

                                       s SFU (cases A-F)

   consolidation of multiple SFUs within the same home

   (cases G-


   children receiving child support payments who had been

   excluded from their family'

                               s SFU (cases L-P)

   excluded half- siblings who must be in the SFU and who

   also draw a parent into the filing unit 

                                                                         (cases Q-S)

   children who , for a variety of reasons
   SFU with the rest of their family 
     , were not in the

                                                            (cases T-BB)

   mothers who were not on AFDC

   AFDC recipients (cases CC-SS), but whose children were

                                STAI FlLlII "IT (SR) EFFE: $S                            IEFITS
                                           (AFix A d!ibe e8 C8.

                                                  EFFE t8 Af
         Standrd Fil ing Units:      N=6
                                                                                                                Total
        Exclud SSA   Recipients
        Total SSA S/Year
                                                          076           540        816      172               139 132
        AFDC Recipients in SFU

             Pre-DEFRA

             Post-DEFRA


        Mothly AFDC Grant
             Pre-DEFRA
                                                  180     216                     555
             Post-DEFRA                                                                    424        304     S 2 025
             Savings or (Costs)                                                   435                 104            634
                                                  180     216      S 34           120      329        200     S 1.391
       Annl Savings     or (Costs)                16O     592         152         440     , 948      , 400   S16 692


                                            EFFECT CI     RICAID 1'

       Stanrd Fi ling Units:      N=6
                                                                                                             Total
       Recipients Gain El igibi l ity
       Recipients lose Eligibility


       Ave. An. Savings or (Costs)         S136     182         374     (S58O)    (S2)     (S1 151)          S 321

       Table slmrizes      only persons where Meicaid eligibility is
      with continu Meicaid eligibility are not                                       affected;      SFU recipients
                                                              includ.
                                 SI:              EFFECT CI   HI



              Stanrd Fil ing     Units:      N=6                Total
                                                                              Average (Costs) or
                                                                                 Savi ngs per SFU
              Recipients ne to  AFDC/Medicaid

              Recipients who lose AFDC/Medicaid


              Anal AFDC Savi    s or (Costs)
              Anl    Medicaid Savi s or (Costs)
              Total HHS Savings or (Costs)

                                                              S16 692
                                                                  321
                                                                                         782
                                                              S17 013

 Consolidation of MultiDle SFUs in a Home 

 required that a teenage mother under age 18 (Cases G-K)
                                                be included   in

                                                             DEFRA

the same SFU with her own mother if the older mother is an

AFDC recipient. In other words
                                 , theintwo
in separate SFUs if they are living         mothers
                                          the  same 
 cannot be

idation of multiple SFUs must occur where mothershome. under Consol­
                                                             age 18

are involved. states   had an option to require such a consoli­
idation prior to DEFRA , and we found that some States were
already doing this. We did not include
cases , any in which consolidation  had already
                                          , in theoccurred.
                                                    45 affected
mother , daughter and grandchild were already in the same SFU
any savings would have been realized prior to the enactment of
 Children Recei vinq Child SUDDort PaYments Who Must Be in the
 SFU (Cases L-P)   Child support payments are not counted
 directly against an AFDC grant unless the monthly payment is

 high enough to render the entire family 

                                         ineligible. When the
 absent parent provides child support payments

 of each monthly payment is given to the mother, and
                                                 the not
                                                     first $50

                                                         counted

 against her AFDC grant. The remainder of the payment is

 turned over to the child support enforcement 

                                               agency.
 We found six children in five homes receiving child support

 payments who were not on AFDC with the rest of their 

 In no case were the child support payments high enoughfamily.
                                                          to

 render the entire family
                           ineligible. This means that
 five AFDC grants would increase, because these  children(1)  all

                                                           must

 be added to their family'
s SFU and
                                     (2) the child support money

 goes not to AFDC , but to the child support enforcement agency.

 These six children would also become eligible for 

                                                    Medicaid.
As the following tables indicate

on these cases. We estimated that, HHS ultimately saves money

                                    adding six children to

these five SFUs would cost AFDC an additional $5

Medicaid an additional $1 763 per year.            472 and

enforcement agency, however
              The child support

these families. Assuming all, would collect $11, 460 from

                               these child support payments

are collectible (i. e., absent fathers pay their full child

support obligations), there would be an overall savings of

   225 despite the increase in costs to AFDC and Medicaid.

Case L illustrates the effect of child support payments.
Prior to DEFRA , the SFU consisted of a mother and two
children. A third child , not on AFDC, received $280 per
month in child support. The family'
                                     s monthly AFDC grant prior
to DEFRA was $228.   Adding the fourth child would result in an
increase of $44.   Annually this would increase AFDC costs by
$528 and Medicaid by $514.   The child support enforcement
agency, however , could potentially collect $2
                                               760the
from this family, resulting in annual savings to   per year

Government of $1, 718.
               ..-                   .-:                    .. ..      _.




Half-siblinas and Parents Who Must Be in the SFU (Cases Q-S)

The DEFRA states that half-siblings who are otherwise eligible

for AFDC must be in the same SFU. We found many cases where

half-siblings were not eligible for AFDC because they were not
deprived.  There were, however, three cases where a half-
sibling was not on AFDC but should        In each instance the
children draw a parent into the SFU. These three cases would
                                                                       be.
increase the welfare rolls by six people (three adults and

three children). Each case would cost additional money,
totaling $7, 531 annually ($5, 412 for AFDC and $2, 119 for
Medicaid) .
Case Q illustrates the effect the SFU changes would have on
this type of case. Prior  to DEFRA, the SFU consisted of a
father and five children. The stepmother to these children

and a child who belonged to the father and stepmother                                             (i. e.,
half-sibling) were not on AFDC. After DEFRA, the half-sibling
would have to be in the SFU because he was otherwise eligible.
He also draws his natural mother        the stepmother) into    (i. e.,
the unit. Adding two more persons to the AFDC grant would cost
$69 per month ($828 annually). Annual Medicaid costs are esti­
mated at $136, for a total additional cost of $964 per year.

                           FIll. I8IT(II Ef: "'-1".-
                                    uwa                                     - _0

                                            EF .. AR
               Stllrd Fill". !.It.:         105                                         Totel
               bel. 111 f-Slbll"llW.

               Af laclpl_. In IRI:
                    P,.-oFIA
                    Pot-DEFI
               III Y   Af GIW
                   PrDEFI                         156               476    I 44        11,
                   I't-DFIA
               S8". 01 (Cot.)                     (I 69)      (I 170)      (I 212)    (I 451)

               Ar1 _I". 01 (Cots)                 (I 82)      (12, 06)     CI2, 54)   (15, 412)


                                        EF .. -1c:
              It""        Flllrw !.It.:                                                Totel
              laclpl_e Gain       Elillbility
              laclpl_e L- Elillbility
              Aw. Am.     Sr". 01 (Coti)          (I 156)     (11, 151)       83)     (12, 119)

               T8I1e   -rlz.   only peracn lI.,e NlIc.ld elillbility I.
               SFU I'lpilntl with       coinu
                                           NliC8ld elilibility e,.
                                                                                      effected:
                                                                                no in:lud.

                                                  EffK..
                                                                           Awl' ..1".
              It8         Fill rw !.I t.:                      Totel       CC.-U) per SFU

              laclpi_. rw to AFDCtMIc.ld
              lacipi_. 110 I.. AFDC/lceid


              Aml AFD ..1". or cCotl)                                           CI'
              Arl 11C8ld ..1". or cCot.)
                    ..1". or
              Totel Mil                 cCot.)
                                                             C..)
                                                             (I 5, 412)

                                                             (I 7   551)
                                                                                C--)
                                                                                CI 2, 510)
Mothers Who Are Not on AFDC and Must Be in the SFU with

Their Children (Cases CC-SS) We identified 17 cases where
children were in SFUs, but their mothers were         DEFRA
requires that these mothers must be in the SFU with their

                                                            not.
children.   Looking at all 17 mothers as a group, the overall
effect would be an addition of 12 persons to the welfare rolls
with increased annual costs of $13, 700 ($8, 124 for AFDC and
$5, 576 for Medicaid)
six of these mothers were teenagers under age 18 (Cases NN-SS)
who were living with their own parents. In each case , the
only person in the home receiving AFDC and Medicaid was the
teenager' s baby. Because the resources of other persons in
the home must be counted against the AFDC grant , children in
five of the six SFUs would become ineligible. In other words,
the babies  ao off assistance and the teenage mothers                    stav off
assistance. In       the sixth case                (Case NN), even though the
teenage mother would become eligible for AFDC, the grant for

both would be significantly less than the grant for just the

child prior to DEFRA.

For the remaining 11 mothers (Cases CC-MM), the effect of

   RA would be very different. In every case, the mothers
would become eligibile for AFDC with increased costs both to
AFDC and Medicaid. Addi tional family resources had no
effect on eligibility or reducing grant levels.

Case CC illustrates DEFRA' s effect. One child was in the SFU.
The child's mother, stepfather and two half-siblings were not.
The two half-siblings were ineligible for AFDC because they
were not deprived (i. , both biological parents were in the
home).  DEFRA requires that the child' s mother must be in the
SFU. The mother had no income. The stepfather reported
earnings of $450 during the review month. Some of his income
would be deemed to the filing unit after removing the needs of
the three people who do not qualify for AFDC               (i. e.,
                                                     himself
and the two half-siblings). Since the need standard for three
persons exceeded the stepfather' s income, there was no income
to budget against the AFDC grant. Adding the mother to the
SFU would result in an annual increase of $2, 534 ($1 992 for
AFDC and $542 for Medicaid) .

The tables on the next two pages illustrate the fiscal impact
DEFRA would have had on these types of cases.
 Summary of SFU Effect on SamDled Cases


 Of the 955 cases reviewed, 45 (5 percent) would have been
 affected by the SFU changes mandated in the DEFRA legisla­
 tion.  The overall impact on HHS programs would have been an
 addition of 30 persons (12 adults and 18 children) to the
 AFDC/Medicaid rolls and increased Federal and state costs of

    257. In  other words, the QC sample identified 2, 665 AFDC
 recipients and 18 sanctioned                  adults.
                                       There were also 13 AFDC
 recipients in separate SFUs who would be affected by the new
 grant consolidation requirements. This comes to a total of
   696 AFDC recipients prior to DEFRA.

  Application of the DEFRA requirements would have affected
  55 persons currently not receiving AFDC , plus 13 AFDC recip-
  ients affected by grant consolidation. All 55 persons had
  family members who were in SFUs. Forty-two of the 55 affected
 persons (76 percent) would have to be included in the   SFU with
. the rest of their eligible family members and be added to the
 welfare rolls. The other 13 persons (24 percent) would not be
 eligible for AFDC because of excess resources (SSA or child
 support payments). Furthermore, mandating that these 13 per­
 sons be considered in the SFU with other family members would
 render 12 current AFDC recipients                The overall
 effect , sumarized in the followingineligible.
                                      chart, is the addition of
 30 persons to the . welfare rolls. Appendix D provides a
 further breakout of this information by State.

                          SlJ        OF DEFI    EFFECT (I   SFU
                  , Cases Revi                                    955
                  , Cases SFU Effect

                  Pre-DEFRA
                    , AFDC .   Recipients                         665
                    # sanction Acilts
                    # In Other SFUs to be Conol idated

                         Total                                    696
                  Post-DEFRA
                   , New AFDC Recipients

                   , AFDC Recipients Lose Eligibility

                         Total
                  SUry
                   Pre-DEFRA Recipients                           696
                   New Recipients
                   Post-DEFRA Recipi ents                         726


A summary of this effect on the welfare caseload by type of

case follows. It should be noted that only two types of cases

resulted in some loss of           eligibility:
                                       (1) families with
members receiving SSA benefits and (2) minor mothers living at
                                   --

  conclude that the effects on the AFDC and Medicaid programs

  are negligible at best. 

  light of the Department' This is significant , however , in

                          s projected Federal AFDC savings

  ($143 million for FY 1985). The
  our estimates of costs to the AFDCfollowing tableprograms.

                                      and Medicaid  summarizes



                         ESTIMTm         COS OF SR
                                      REGICI IX AI X
                                                             ClS II
                                       HHS Share
             Total Costs

                    AFDC
                                             989)                162 04)
                    Medicaid
                                                                 985 116
                    Total            ($5 217 329)            ($9 147 164)
                  The estimate for the Fedral share is higher than

                  the estimate for the total cost beause the
                  cost cases OCcurdisproprtiontely in                 ad-
                  a higher Fedral Financial ParticipationStates
                                                          (FFP).
                                                                with



 Even though the sample contained a mix of large and small

 States with wide variations in grant levels

 may not be representative of the country as, awewhole.  

                                                  recognize  it

 sample States are representative (Le.                   If the

                                       , a "would
 situation), the following cost projections        apply:

                                            what if"



                         ESTIMTm   8I CO
                                        IATI(IIDE
                                                     OF SR   tls
                                     HHS Share           Total Costs

                  AFDC          ($ 3        000) 1      ($ 1 012 000)
                  Medicaid      ( 29. 602. 000)
                                                        ( 56. 156. 000)
                  Total (132               000) ($57           168 000)
                The estimate for the Fedral share is higher than
                the estimate for the total cost
                                              beaue
                cost case occur disproprtiontely in            the   ad-
                                                              States with
                a higher Fedral Financial    Participation (FFP).




 Precision is poor for the estimated child support payments
available to the child support enforcement agency
DEFRA), since few cases were identified in the      (post-
                                                sample.
Given this caveat , the data suggest that for children

previously excluded from SFUs approximately $7

                                                735 000 in
would be available to the child support agency annually
the eight States. Projected nationally the total would be
$48 343 000.   This assumes aggressive collection of support
payments owed by absent parents throughout the year.

households qualifying for only 1 AFDC
                                            grant.
recommends that the Social Security Act should The report to

                                                be amended
recognize the economies of shared living arrangements by

requiring that 

                   all
                   AFDC families residing in the same house­
hold be treated as a single filing unit for determining the

grant amount.


IMPACT: Expanding mandatory  consolidation
would result in substantial savings to AFDCof multiple
                                            without    SFUs
                                                    incurring

additional costs to Medicaid. The
shared 1 i ving   arrangements proj ectedOIGthat
                                              audit on economies of
                                                 requiring all AFDC
families residing in the same household be treated as a

single filing unit could save the AFDC program at least

$147 million annually (Federal share: $73.
$735 million (Federal share: $367.         5 million) or

5 years.
                          5 million) over the next

                                                   APPENIX A


SUMY OF CAES AFFECTING     STANDAR FILING UNIT (SFU)
                   POST-DEFR (N=45)

PERSONS WITH SSA BENEFITS WHO MUST BE IN SFU (N=6)

    AFDC/SFU: One adult     and one child: six Dersons in
    home      Four natural children excluded (i.    , one
    who is on SSI and three who receive $672/month in
    SSA benefits). QC found that the three children
    receiving SSA benefits must be in the SFU and
    their income budgeted against the grant. Result:
    loss of AFDC and Medicaid eligibility for the
    entire family.

    AFDC/SFU: One adult   and one child: three Dersons
    in home . A natural child, who receives $423/month
    in SSA benefits , excluded from the grant. QC found
    that this child must be in the SFU and the SSA
    benefit budgeted against the grant.     Result:
                                                  loss
    of AFDC and Medicaid eligibility for the entire
    family.
    AFDC/SFU: Two adults and one child: seven Dersons
    in home   Four natural children excluded (collec
    tively they receive $1045/month in SSA benefits) .
    QC found that these four children must be in the

    SFU and their SSA benefit budgeted against the

    grant. Result:   loss of AFDC and Medicaid
    eligibility for the entire family.

    AFDC/SFU: One adult    and two children: five Dersons
    in home    Two natural children excluded (collec­
    tively they receive $318/month in SSA benefits) .
    QC found that these two children must be in the SFU

    and their SSA benefit budgeted against the grant.

    Resul t: addi tion of these two children to the
    family' s grant , which would be reduced by
    $120/month, plus the two children would become
    eligible for Medicaid.

    AFDC/SFU: One adult and one child: three Dersons
    in home . A second natural child, excluded from the
    grant ,receives $431/month in SSA benefits.
    found that this child must be in the SFU and the
    SSA benefit budgeted against the grant. Result:
    addition of this child to the family' s grant, which
    would be reduced by $329/month. The child would
    become eligible for Medicaid.

                         A- 1

- ""




                    The consolidation has no effect on AFDC or Medicaid

                    eligibility, but would result in savings of

                    $66/month.
       III. CHILDRE WITH CHILD     SUPPORT   PAYMS WHO   MUST BE IN SFU
            (N=5)
                    AFDC/SFU: One adult and two children: four Dersons
                    in home . A natural child, who receives $280/month
                    in child support payments, is excluded. QC found
                    that this child must be in the SFU. Because the
                    support payments would not render the family ineli­
                    gible, this child would be added to the AFDC grant
                    (which would increase $44/month) plus become elig­
                    gible for Medicaid. The child support payment
                    with the exception of the $50 pass-through to the

                    mother, would go to the IV-D collection agency.
                    AFDC/SFU: One adult and one child: three Dersons
                    in home . A second natural child, excluded from the
                    SFU, receives $200/month in child support payments.
                    QC found that this child must be in the SFU.
                    Because the support payments would not render the

                    family ineligible, this child would be added to the

                    AFDC grant (which would increase $53/month) plus

                    become eligible for Medicaid. The child support

                    payments , with the exception of the $50 pass-
                    through to the mother , would go to the IV-D agency.


                    AFDC/SFU: One adult
                                      and one child: four Dersons in
                    home
                       Two natural children, excluded from the
                unit, receive $500/month in child support payments.
                QC found that these children must be in the SFU

                with their mother and     sibling.
                                                 Because the support
                payments would not render the family ineligible
                the two children would be added to the AFDC grant
                and be eligible for Medicaid. The family' s AFDC
                grant would increase $201/month. The child support
                payment, with the exception of the $50 pass-through
                to the mother, would go to the IV-D agency.
                    AFDC/SFU: One adult   and two children: nine Dersons
                    in home   Of five excluded household members , four
                    are part of another AFDC unit which cannot be con­
                    solidated under current law (e.g. mother is a child
                    of the AFDC adult recipient, but over age 17).   The
                    fifth excluded member is a natural child of the AFDC
                    adult recipient , who receives $100/month in child
                    support payments. QC found that this child must be
                    in the SFU with his mother and two siblings. This
                    child would be added to the AFDC grant and become
                    eligible for Medicaid, resulting in an AFDC increase

                                       A- 3

OT CHILDRE WHO MUST BE IN SFU (N=9)
    AFDC/SFU: Two adults and two children: eiaht
    Dersons in home    Four other natural children
    excluded. One of these children is over 18 and not
    eligible for assistance. The    other three recently
    received their green cards (but prior to the review
    month) and are , therefore , eligible for AFDC.
    found that these three children must be in the SFU
    with their mother and other siblings and become
    el igible for Medicaid. The family' s AFDC grant
    would increase $255/month.
    AFDC/SFU: One adult     and one child: six Dersons in
    home   One natural child, as well as a sibling to
    the mother and two nieces or nephews, excluded.
    found that the excluded natural child must be in the
    SFU with his mother and sibling. This child would
    be added to the AFDC grant and become eligible for
    Medicaid. The family' s monthly AFDC grant would
    increase $53/month.


    AFDC/SFU: One adult   and two children: four Dersons
    in home . A natural child excluded.    Mother shares
    j oint custody with the child' s father, who is not
    living in the home.   QC found that eligibility for
    AFDC for this child would depend on the conditions
    of the j oint custodyagreement. Based on the
   information in the case file , the child probably is
   eligible for AFDC and must be included in the SFU.
   Adding the child would increase the family' s AFDC
   grant $85/month plus add Medicaid eligibility.

   AFDC/SFU: One adult  and four children: six Dersons
    in home  Excluded child is a 17- year-old natural
   child. QC found no evidence in the file why she
   should be excluded and determined she must be in the
   unit.  Adding her increases the family' s grant
   $72/month. She also becomes eligible for Medicaid.
   AFDC/SFU: One adult      and one child: five Dersons in
   home    Three other natural children excluded. The
   case file indicates the mother has a common law
   husband (who is not in the home) and does not want
   these three children on AFDC. QC suspects the
   father is actually in the home, but neither the
   state nor the Federal reviewer has been able to
   prove this. Therefore, his status as an absent
   father must be accepted, which makes the three
   children eligible for assistance. They must be
   included in the SFU, increasing the family' s AFDC


                       A- 5

       earnings of $450 during the review month , part of
       which would be deemed to the SFU after removing the
       needs of the three people who do not quality for
       AFDC. Since the need standard for three persons
       exceeds the stepfather' s income, there is no income
       to budget against the AFDC grant. Resul t:
       increase of $166/month plus Medicaid eligibility for
       the new recipient.

DD.	   AFDC/SFU: One child:   four Dersons in home . Child'
       natural mother, stepfather and a half-sibling
       excluded. QC found that the half-sibling was not
       otherwise eligible because there is no deprivation
       but AFDC child' s mother must be in SFU. Mother had
       no earned income. . Stepfather reported $127. 30 in
       wages and $43. 40 in unearned income. This does not
       exceed the needs standard for the two persons not
       eligible for AFDC, so none of his income would be
       budgeted against the grant. Result: an increase of
       $47/month plus Medicaid eligibility for the mother.
EE.	   AFDC/SFU: Three children: five Dersons in home
       Child' s natural mother and stepfather excluded.
       found that the mother must be in the SFU. Step­
       father had no income. Mother had unreported income
       of $119. 88, which would be budgeted against the
       grant without any work deductions (a penalty for
       not reporting income). Result: an increase of
       $37/month plus Medicaid eligibility for the mother.
FF.	   AFDC/SFU: One child: three Dersons in home
       Child' s natural mother and stepfather excluded.
       QC found that the mother must be in the SFU. Child
       receives SSA income of $205jmonth which has already
       been reflected in grant computation. The stepfather
       is self-employed. Since his expenses exceeded his

       income, none of his income would be budgeted against

       the grant. Result: an increase of $371/month plus

       Medicaid eligibility for the mother.
GG.	   AFDC/SFU: One child: three Dersons in home
       Child' s natural mother and stepfather excluded.
       QC found that mother and stepfather are receiving
       a total of $141/month in Bureau of. Indian Affairs
       (BIA) funds. Nei ther adult has any earned income.
       Mother must be included in the SFU. This would
       reduce the BIA stipend, but not to a level that
       would allow budgeting any of it against the AFDC
       grant.  Result: an increase of $47/month plus
       Medicaid eligibility for the mother.



                           A- 7

      excluded. QC found that the mother must be included
      in the SFU.  She reported an income of $393 for the
      review month, part of which was budgeted against the
      grant. Her income had been counted previously, but
      now she is entitled to earnings disregards, so the
      grant amount is changed. Result: an increase of
      $184/month plus Medicaid eligibility for the mother.
NN.   AFDC/SFU: One child:   five Dersons in home . Child'
      mother, a minor living with her own parents, and
      another relative excluded. QC found that the minor
      mother must be in the SFU with her child. Minor
      mother' s father reported income of $400 during the
      review month, part of which would be budgeted

      against the grant. Resul t: a decrease of

      $95/month , but the minor mother would become
      eligible for Medicaid.


00.   AFDC/SFU: One child:  four Dersons in home    The
      child's natural mother , a minor living with her own
      mother, and an older sibling excluded. QC found
      that the minor mother must be in the SFU with her
      child.  The case record indicates that the grand­
      mother has Blue Shield insurance, which suggests she
      is employed, since she was under retirement age. No
      income level was indicated, but we presumed her
      resources were adequate to meet the needs of her
      grandchild, since she and her children are not on
      AFDC. Result: loss of AFDC and Medicaid
      eligibility for the child.
PP.   AFDC/SFU: One child:   six Dersons in home . Child'
      natural mother, a minor living with her own mother,
      and three other siblings excluded. QC found that
      the minor mother must be in the SFU. The minor
      mother' s own mother earned $736 in the review month,
      part of which would be budgeted against the AFDC
      grant. Result:    loss of AFDC and Medicaid
      eligibility for the child.


QQ.   AFDC/SFU: One child:   four Dersons in home    The
      natural mother , a minor residing with her own
      parents, and two siblings excluded. QC found that
      the minor mother must be in the SFU. Since both of
      the natural mother' s parents work, QC presumed that
      their combined income, when budgeted against the

      their grandchild. Resul       t:
      grant, would be sufficient to meet the needs of
                                   loss of AFDC and
      Medicaid eligibility for the child.

RR.   AFDC/SFU: One child:     nine Dersons in home    The
      child'   s natural mother , a minor living with her own

                            A- 9

                                                                                                                      APPEND IX 8





                                  ESTIMATE      AVE IElcalD aJS 8Y STATE
                                           AR ClILD Al ADTS

                                                         (FY 198)

        State                                    Ale

            Depet     Ch i   ldren ..21                289        531 477                 381 300
        Total $ to Chi ldren ..1                       342   $35, 951 104         S402, 325 ,            $16 636
        Average Cost per Chi ld                                                                 290                 322
        # AFDC Adul ts                                 190       221 776                  946 420
        Total $ to Adul ts                      602          $15 410, 181         $513    09, 919        $22, 334 161
        Average Cost per Adult                         212                                    542                   774



State                                                                                                               Total
  Depnt      Chi ldren ..1                318            10, 436                                 164 302              100 177
Total $ to Ch i ldren ..21           448, 050           362 756      $18   33, 252              , 733   391      $520 691 243
Average Cost per Child                    312                514                  311                   394               306
# AFDC Adul ts                            835                                                      416                110 091
Total $ to Adl ts                 $6, 131 139           246 951            050,            $59 358 595           S63, 422 121
Average Cost per    Adl t                 859                                                      751                      580

  1 Source: Data based on HCFA 208          form for FY       1984 (not avai lable for Arizona   , du to

   State'   s atypical Medicaid program).

   Source: Data based on informtion from Arizon State                      Meicaid officials for July 1984

   to June 1985.





                            FSA ClITY     aI           STAfF TIlE    SP II CA              REEW
                                                             Region IX            Region X              Total
                 Total Cases Review

                 Cases - F . U. Effect

                 Cases - No F. U. Effect


                 Minues - Staff Review                                                  961              1621
                 Minues - Suprvisory Review
                 Total (Mir&tes)                                                        1441             2101

                 Total (Hours)

                 Total (Person Days)


                 Average Time Per Case                         21.                  34.                 28.
                       (M i r&tes)
                                                                                          APPEND I X C


                SI PE II th Pri8r C8)
                            Of
                            (As Related to
                                           II
                                   AR IEIPIElS            WITH



                                 Cetea of                                         Total I

  I.   AFDC ReciDients

       A. Acilts


                Mothers

                Fathers

                Other Relatives

                                                                                    71X

       B. Children
 I I . Other Persons in Hom
       A. Adl t Caretakers of AFDC Chi ldren

                 Recipients of SSI
                 Recipients of SSA
                 In Seprate AFDC SFU
                 Other Mothers                                             180
                 Spoes
                 Relatives

       B. Chi ldren Affected by SFU Changes
                 Recipients of SSI

                 Recipients of SSA

                 Recipients of Chi    ld Suprt

                 Recipients of Other Incom

                 No Depivation      (Inel igible)                          249
                 Ovr Age 18
                 Hal f Sibl   ing (El igible)
                 In Serate AFDC SFUs
                 Other Reason

           Relatives
                 Parents
                 Sibl ings                          132                    434    11.
                 Others                             123


           Unrelated Adl ts & Chi     ldren
                 Acil ts

                 Chi ldren



II.    Total   in Houold                                                    755    100X




Includs 18     santion adlts.

Excluds 34 natural chi ldren        in seprate AFDC fi     l ing units.

                                                             ..




                                                                                                      APPEND I X D
                              SRJ EFFECT CI      AfI8ICAID CACM IT            STATE


                         EFFE OF     FK I         PE      CI 
          ICAID CALCM
                                       Exc l   ud Person             Others Who       SFU Effect on

                                               Remin      New to      Lose AFDC         Case load

            State        Cases     Total       off AFDC    AFDC      Eligibil ity     Gain or (Loss)


        Alaska


        Arizona

        Cal ifornia


        Hawaii


        Idaho


        Nevada


        Oregon


        Washington


           Total


                                    SR EFFE CI MU TS AI             CII.I
                                     Aell ts                      Chi ldren                   Total
  State              Cases   El ig. Gain or (Loss)        Elig. Gain or (Loss)        El ig. Gain or (Loss)
Alaska
Ari zona

Ca l iforni a



Hawaii

Idaho

Nevada

Oregon

Wash i ngtOf

  Total
